                            CLOSEOUT FOR M-94020003


        This case was brought to the attention of OIG on 9 February 1994 by the
complainant.' He alleged that the subject' plagiarized or closely paraphrased text in part of
the subject's NSF p r ~ p o s a l . ~
                                    The complainant alleged that the plagiarized material came
from a published review article by other scientist^.^ OIG's inquiry determined that the
allegation of plagiarism had substance. OIG deferred the investigation to the institution.

         After reviewing the institution's investigation report, OIG began its own
investigation. OIG's investigation report and the NSF Deputy Director's 15 December 1997
letter reflecting his decision constitute the closeout for this case.

Cc: Staff Scientist, Attorney, AIG-Oversight, IG




                                        Page 1 or 1                                M 94-03
                              NATIONAL SCIENCE FOUNDATI(
                                  4201 WILSON BOULEVARD
                                 ARLINGTON, VIRGINIA 22230


                                              December 15, 1997


     OFFICE OF THE
    DEPUTY DIRECTOR




As you are aware, the Office of Inspector General of the National
Science Foundation (OIG) has conducted an investigation into an
allegation charging you with plaqiarizing text from a review
article authored by                     in your NSF proposal.
I have very carefully reviewed all the materials in the case and
write to inform you that NSF will not issue a finding of
misconduct in science in this case.
NSFfs regulations define misconduct in science to include
'plagiarism,          ....
                  or other serious deviations from accepted
practices in proposing, carrying out, or reporting results from
activities funded by'NSF." 45 CFR §689.1(a). Verbatim or
paraphrased text should be offset and accompanied by a citation
to the original source.
I agree with OIG that you did not adequately apprise the reader
of the'full extent of your reliance on the
review article in the backsround section ofQur   NSF proposal.
However, I also took several other factors into accoukt In
deciding whether your conduct constituted misconduct in science.
These include the fact that you provided some attribution to the
original authors in the introductory portion of 'the text, you did
quote the original sources of the ideas, and that your University
concluded that you did not seriously deviate from accepted
practices or engage in scientific misconduct.
I caution you to use great care in future NSF proposals or
submissions to ensure that vou attribute full credit to the
original author and that yo; offset verbatim or paraphrased text
and include citations to the source document.




                             w Acting
                               Joseph Bordogna
                                      Deputy Director
      CONFIDENTIAL



NSF OIG INVESTIGATION
                  REPORT



    OIG Case Number M-94020003
                   REPORT OF INVESTIGATION INTO AN ALLEGATION OF
                      MISCONDUCT IN SCIENCE AND ENGINEERING

                                                  SUMMARY

        The Office of Inspector General (OIG) has determined h  taft-Ihe
subject), a faculty m e m b e - t h e                          institution), plagiarized text in a
 grant proposal h d e d by NSF. This conclusion is based on an OIG investigation. OIG
recommends that NSF find that the subject committed misconduct in science and take the
following actions as a final disposition in this case. NSF's Deputy Director should send the
subject a letter of reprimand informing him that NSF has made a finding of misconduct in
science against him and that when proposals are submitted by him or on his behalf to NSF, he
is required to submit certification to OIG that, to the best of his knowledge, they contain
nothing that violates NSF's Misconduct in Science and Engineeringregulation. Further, he is
required to ensure that his departmentchairperson submits an assurance to OIG that, to the best
of that person's knowledge, the subject's proposal does not contain any plagiarized material.
NSF should inform the subject that the certification and assurance actions are in effect until two
years have elapsed from the frnal dispositionof this case.

                                               BACKGROUND




his f m t award &om NSF in                   The subject has also served as an editor for th

                                                                                                                          I
       In February 1994, OIG received allegations of misconduct in science fiom a
                                                 ubject's proposal referred one time to a review
                                                the Article), the proposal contained paraphrased
and verbatim text fiom the Article that were not attributed properly. In addition, it was alleged
that two of the figures in the subject's proposal were copied fiom the Article and not "adapted"
from a published paper as the subject's figure captions indicated.                                                    I




' At its conclusion the subject's   award,                                           C                            I
* According to NSF's     proposal and                                  listed as a_PI or co-PI on a total of 16
                                       OIG'S INOUIRY

         OIG compared the text in the subject's proposal with the text in the Article. About 44
 lines of text in the proposal appeared to be identical or substantially similar to text in the
Article. The identical text in the proposal is keyed in Tab #I of the Appendix to eleven
sequentiallynumbered sections in the Article. Similar or praihrased text that also appears in
the eleven sections is not maiked. In addition, OIG observed that nine figures in the subject's
proposal were designated as "adapted" from source documents in the figure captions. These
nine figures are labeled A through I (see Tab #2) in the subject's proposal and cross-referenced
with the original source documents. Six of these figures (A, B, F, G, H and I; Tab #2) appeared
to have been copied from the original source documents4 with no alterations from the cited
source other than changes in size and in figure caption. The remaining three figures (C, D and
E; Tab #2) cited a source docurnenf but appeared to have been copied from the Article with no
alterationsfrom the Article's figures other than changes in size and in figure caption.

        OIG wrote to the subject requesting his explanationof the allegations(see Tab #3). The
subject explained (see Tab #4) that, although he did read the Article prior to writing his
proposal, he could show that the similarity of wording came "fi-om citing the same literature
and describing the same concept. and phenomena" as the Article. The subject addressed each
of the eleven identified sections of text with specific references for comparison. He said that

       while there are similarities in my text and [the Article], the indicated sections
       also are similar to the source references and other published literature and
       symposiapresentations. Both my [proposal] text and [the Article] are reviews of
       the same material. Thus, similarity in phrasing is natural. The ideas being
       presented are not mine nor did they originate with [the Article's authors]. I feel
       that an allegation of plagiarism is unwarranted.

        The subject claimed that the eleven cross-referencedsectionsof text in his proposal and
the Article included only review material that did not represent either the subject's or the
Article's authors' original ideas, and OIG agreed. However, OIG concluded that the subject did
not adequately explain the extensive verbatim and substantially similar wording and phrasing
between his proposal and the Article. In OIG's view,the source material that the subject cited
 was significantly different from both the proposal and the Article. We determined that the
 allegation of plagiarism in the text had substance and required investigation.

        OIG also asked the subject about his use of the term "adapted" on each of the nine
 figures. The subject stated that he "did cite the original source for all of the figures." OIG
'agreesthat he cited the original source for six of the nine figures(A, B, F, G, H and I; Tab #2).
 With the three figures that appeared copied from the Article the subject stated

        [Flor the three figures reproduced from [the Article] but cited to the original
        sources [see Tab #2: items C, D and El, I felt that the intellectual effort made by
        [the source5]to assemble the data and produce the contoured fields was greater
        than the copying and relabeling for the sector plots and I acknowledged
        accordingly. In this instances [sic], I may have acted improperly, but without
        malice. I did acknowledge the work fi-om which the figures came and did not
        claim them as my original work nor ideas.

       OIG believed that the figures were a minor issue. OIG's inquiry determined that there
was sufficient substance to the allegation regarding plagiarism, however, to warrant a Ml
investigation. We contacted the Authorized Organizational Representative (AOR) designated
on research proposals for the institution on August 25, 1995. At the AOR'S request, we
deferred the investigationto the institution (see Tab # 5 ) in accordance with NSF regulation (45
C.F.R 5 689.4(d)(2)).

                         THE INSTITUTION'S INVESTIGATION

THE SIMILAR TEXT

       The Investigation Committee's (the Committee) report (see Tab #6) stated that it
accepted the subject's explanation that the similarities between [the Article] and his proposal
occurred

       because he wrote the section of his proposal from notes taken while reading [the
       Article], along with other papers on the same subject. When writing the
       proposal, he was influenced by his notes, and this resulted in similarities in
       wording.

       Further, the Committee agreed with the subject's statement that the material presented in
the Article
                                                                            L



      was established by other authors and is well-known in the field. Ideas original
      with [the Article] were not presented.
       The Committee stated that "[slince both [the Article] and [the subject's] proposal section
were reviews of the same body of literature, many similarities of wording were inevitable."
The Committee cited two examples provided by the subject to show that similarities in wording
between the Article and the subject's proposal were a natural consequence of authors using
"common terminology" to discuss the same subjects.

        For instance, in Section 1, which begins "South of the Pacific-AntarcticRidge..."
        in the proposal [page 61, the Committee found that the similar section in [the
       Article] (page 63) begins "On the southern flank of the mid-ocean ridge ..." and
       the similar section i
     -begins?n                    the southern flank of the mid-ocean ridge..." This
       wording is not attributed to                                      _)[the Article's
       authors]. The Committee talc? this coincidence in use of the "flank" metaphor
       as evidence not of plagiarism by [the Article's authors], but rather of the degree
       to which common wording arises in reviews.

      OIG notes that two of the quoted phrases in the above paragraph are not ~orrect.~

      The second example was

      in section no. 10.               tates that "upper Circumpolar Deep Water is
      characterized by                    dissolved-oxygen concentration." [The
      Article's] words are "Upper Circumpolar Deep water is characterized by a
      minimum in dissolved oxygen concentration."        [The subject's] words are
      "Upper Circumpolar Deep Water is characterized by a minimum in dissolved
      oxygen." Other common wordings from various sources were indicated by [the
      subject].

      With respect to the alleged plagiarizedtext, the Committee stated that

      although there were similarities between the text of the proposd and [the
      Article's] text, they were insuficient to constitute plagiarism and were not unlike
      similarities between various authors [sic] descriptions of the same phenomena.
      [The subject] did make extensive use of [the Article's] work, and he credits them
      within the proposal section under discussion: "An excellent review of the flow
      in this region is given by [the Article]." [This sentence is annotated in red on
        page 6, Tab #1] It would have been more accurate of [the subject] to have
        emphasized the benefits derived from from [sic] [the Article's] review more
        explicitly, rather than expecting the reader to understand its importance. The
        addition of the phrase "and I have made extensive use of that review in preparing
        this proposal', to his sentence would have been helpful, nevertheless his failure
        to do this does not constitute scientificmisconduct.

       The Committee explained that because [the Article's authors] "were given credit and
praise" once in the proposal, and because other sources were cited appropriatelyfor the various
sections,

        it would not have been proper to cite [the Article] for the entire section. To have
        referenced [the Article] at every mention of the material contained in their
        review would have led to an injustice to the authors of the source papers. The
        authors of other source papers were referenced by [the subject].

        OIG notes the Committee apparently considers that, by merely citing the same sources
that the review Article cited, the direct plagiarism of the wording of the Article could be
dismissed. OIG considers the wording and organization of materials in the Article to represent
the originalintellectual effort of the authors and verbatim copying such text without proper
citation constitutes plagiarism. In fact, with the case at hand, both citation and appropriate
quotation marks of the Article's text as well as citation of the original sources would have been
proper according to the Committee's logic because failure to cite the Article would be "an
injustice" to the authors of the Article.
                                        '




THE FIGURES

        The Committee concluded that six of the nine figures (Tab #2: A, ByF, G, H and I) were
cited appropriately. For the three remaining figures that appeared to have been copied fiom the
Article (Tab #2: figures C, D and E) the Committee determined that the subject's description in
the figure captions, "although correct," was "not complete." The Committee said that it would
have been best to credit the figures as "adapted from [the Article's authors] who adapted from
[the authors of the original source6].1' However, the Committee determinedthat "no plagiarism
or scientific misconduct was involved in using the simplifiedattribution," and OIG agreed.

THE COMMITTEE'S CONCLUSION

       The Committee found that                                             -
       [the subject] did not seriously deviate from the ethical standards of his scientific.
       community, did not commit plagiarism, and is not guilty of scientific
                                                5
          misconduct. He fell shon of perfection in not making his degree of usage of [the
          Article] as clear as he could have, and in not more precisely attributing the
          figures he indicated to be adapted from [the original source5]. [The subject] did
          not cross the threshold of seriousness in reference to "serious deviation from
          accepted practices."

          The Committee said that the

         proceedings and this report [would] emphasize to [the subject] the importance of
         accuracy and carefbl citation when referencing scientific materials. The
         Committee believe[d] no further action against [the subject was] warranted and
         therefore, not recommended.                                                            I



         The AOR accepted the committee's recommendation.

               OIGISANALYSIS OF THE COMMI'I'TEE'S INVESTIGATION

         Although OIG respects the Committee's effort and gives great weight to the facts it
 presented, we disagree with the Committee's reasoning. When asked specifically about how it
 determined that the similarities were "insufficient to constitute plagiarism" (see Tab #7), it
 stated that because "there was no complete sentence in common between [the subject's]
 proposal and [the Article's] review," it judged that the similarities that existed "did not
 constitute plagiarism" (see Tab #8). The Committee employed an excessively stringent notion
 about what constituted plagiarism when it evaluated the eleven sections of identical and
 substantially similar text for evidence of plagiarism.' OIG's independent comparison of these
 same eleven identified sections determined that the text in the subject's proposal was either
 verbatim or closely paraphrased fkom tbe Article (see Tab #9). In particular, sections #3, #4,
#6, #7, #8, #9, and #I 1 contained very closely paraphrased text (unmarked) between the
sections of annotated verbatim text. OIG believes that the scientific community's standard is
that plagiarism includes verbatim copying without quotations and proper citation and
paraphrasing (copying substantially similar text that retains the structure and content of the
original source with only minor non-substantive changes) without citing each section that
contains paraphrased text Further, OIG believes that plagiarism of text that describes any
information in a proposal can seriously erode the NSF review process by misleading the
reviewers as to the proposer's cornmunicationskills,experience, and knowledge of the field.

' In Harbrace College Handbook by J . C. Hodges and Mary E Whitten, 8" edition, 1977 (first copyright 194 l),
 published by Harcourt Brace Jovanovich, Inc., it states that plagiarism involves the failure to acknowledge
 borrowed material. Specifically, it describes paraphrasing on page 372 as pl~iarism."When you paraphrase the
 words of another, use your own words and your own sentence structure, and be sure to give a footnote citing the
 source of the idea. A plagiarist often merely changes a few words or rearranges the words in the source. As you
 take notes and as you write your paper, be especially careful to avoid plagiarism."
                                                      6
         As part of the Committee'sjudgment that the subject had not committed plagiarism, it
 referred to the single reference to the Article in the proposal. It contended that, although the
 subject could have more clearly indicated his use of the Article in the preparation of his
proposal, his reference to the Article showed the reader that he used it in the preparation of the
proposal. The one reference to the Article in the subject's proposal (first paragraph on page 6 )
appeared one full paragraph before the first of the eleven identified sections of similar text and
contained no suggestion that he used the Article as a source for the plagiarized text. The
subject neither offset nor bracketed in quotation marks any of these sections of verbatim or
paraphrased text in his proposal, so that a reader would not know how extensively the subject
used the Article in the preparation of the proposal. OIG believes that the subject's single
reference to the Article in the proposal does not mitigate his ethical or scholarly responsibility
to properly cite the verbatim and paraphrased text from the Article in eleven sections of text in
his proposal and that this failure constitutes plagiarism.

         The Committee accepted the subject's explanationthat the similaritiesobserved between
the text in his proposal and the Article were the natural consequence of authors citing the same
 literature and describing the same concepts and phenomena, and concluded from the examples
provided by the subject that other authors had used comparable wording to describe the same
ideas. OIG compared the identified eleven sections of similar text in the Article and the
proposal with the examples of allegedly similar text provided by the subject as his own
evidence (see Tab #9 for a comparison of the identified similar text and many of the subject's
referenced examples). OIG found no convincing support for the subject's explanation or the
Committee's conclusion that other authors had described the same ideas in a similar fashion.
Instead, the text examples provided by the subject showed that other authors described these
commonly held ideas in significantlydifferent styles from what was observed in the Article and
the proposal.

       The Committee accepted the subject's assertion that, when he wrote the proposal, he
used notes he had prepared fiom the Article along with notes from other publications. The
Committee concluded that the subject "was influenced by his notes, and this resulted in
similaritiesin wording." OIG asked the Committee if it had reviewed the subject's notes. The
Committee explained that it had not, because the subject had discardedhis notes.

       OIG found that the eleven sequentially numbered sections of text in the Article occurred
in the proposal as three distinct groups (#I, #2, #3; #8, #9, #lo, #11; and #4, #5, #6, #7,
respectively). OIG asked the Committee if the order within the three groups in the proposal
suggested that they were copied from a single source in that order. The Committee concluded
that whatever similarity existed in the order of text between the proposal and the Article was
the consequence of two authors writing about the same material. It stated that it did
         not consider the order of the sections to be significant evidence of plagiarism
         (nor the lack of reproduction of the order as evidence to the contrary). [see Tab
         #81

  OIG believes that the observed similar order of text in this case (into three distinct groups, each
  with the same succession as the Article) would likely not have occurred if the subject had used
 separate notes from several different sources to prepare the proposal, as he contends. We think
 that the order within each of the three groups, when considered in conjunction with the nearly
 verbatim text in the eleven sections, suggests that the subject used a single source when he
 wrote this section of the proposal. The source was either the Article itself or verbatim and
 closely paraphrased notes he had prepared from the Article. The subject was plagiarizing the
 text as well as the organizationof the ideas presented in the Article.

 THE ACT AND THE STATE OF MIND

        For NSF to make a finding of misconduct, a preponderance of the evidence must show
that the subject committed culpable acts with a culpable state of mind. OIG believes that the
preponderance of the evidence indicates that the subject committed acts that fall under NSF's
definition of misconduct in science, and that he did so with a culpable state of mind

         OIG believes that the evidence supports the conclusion that the subject committed
 plagiarism when he copied 44 lines of identical or substantially similar text fiom the Article in
 his proposal without proper acknowledgment. We believe that the subject was not totally
 honest when he told us that the text in the proposal copied from the Article was similar to text
 in other publications. OIG believes that the subject was at least grossly negligent when he
 plagiarized and that his actions cannot be dismissed as merely careless. At the least, the subject
prepared verbatim or closely paraphrased notes f!rom the Article. Subsequently, the subject
transcribed the text fiom his notes into the proposal without copying the reference or without
attempting to establish the source of the text. Because the subject claimed that the notes had
been destroyed and the Committee did not ask for other examples of notes the subject may have
made, there is no evidence that the subject ever used notes to prepare the proposal. We believe,
given the extensive number of lines of identical and substantially similar text involved, it is
unlikely that the subject copied the eleven sections of text fkom the Article into notes, and then
transcribedthe text from those notes into his proposal. Instead, we believe it is more likely that
the subject copied the text directly from the Article into his proposal. If so, the act was at least
knowing.


           OIG'S CONCLUSIONREGARDING MISCONDUCTIN SCIENCE
        OIG concludes that a preponderance of the evidence supports the finding that the
 subject plagiarized 44 lines of text in nearly the same order from the Article into his NSF
 proposal. It concludes that he was at least grossly negligent in doing so. OIG therefore
 concludes that the subject committed misconduct as defined in NSF's Misconduct in Science
 and Engineeringregulation.



                              OIG'S RECOMMENDED DISPOSITION

        Under $689.2(b) in NSF's Misconduct in Science and Engineering regulation, NSF,
.upon making a finding of misconduct, must consider the serio~sness~of    the misconduct. OIG
believes that plagiarism is seriously unacceptable in the.scientific community. In relation to
other examples of plagiarism, the subject's copying in his NSF proposal was comparable to at
least two other cases adjudicated and found to be misconduct by the Deputy Director. The
subject's plagiarism is a serious deviation fiom accepted practice because plagiarism in NSF
proposals is an unethical practice that compromises the integrity of the NSF review process by
misleadingreviewers.

        OIG believes that NSF should take action to protect the federal government's interest in
maintaining scholarly integrity in the research it funds. In light of the subject's extensive
experience as a researcher, as a journal editor and as a PI on NSF awards, he should have
shown more caution and been more diligent when he prepared his proposal. When asked to
explain the eleven sections of identical and substantially similar text from the Article in his
proposal, the subject denied he had copied it. He claimed that the plagiarized text in his
proposal bore the same relationship to the other authors' published text as it did to the text in
the Article. However, his own evidence to support this contention is not convincing. As an
alternativeargument, the Committee concluded that the plagiarized text may have resulted fiom
notes that the subject created, but the subject claimed he had discardedthosenotes. We do not
find the subject's testimony to be credible and remain extremely concerned that a researcher of
his level of experience does not seem to recognizethat his actions were inappropriate.

         We recommend thit NSF's Deputy Director take the following four actions:

         (I)     NSF should send a letter of reprimand to the subject stating that it has
                 concluded that he committed a serious deviation from accepted practice
                 and thus misconduct in science by plagiarizingin his NSF proposal?
     -

'Case M-92010003 and case M-93010003 both involved plagiarism in a proposal of 35 an'd 32 lines, respectively.
 Both cases were adjudicated with a fmding of misconduct in science. The sanctions for these cases are consistent
 with the recommended sanctions for this present case.
 This is a Group I action, see §689.2(a)(l).
                                                        9
              (2)      NSF should require that, for two years from the date of the final
                       disposition of this case, when the subject is a principal investigator or co-
                       principal investigator on a proposal submitted to NSF for funding, the                            ,


                       subject will ensure that his department Chairperson has signed an
                       assurance stating that, on the basis of the Chairperson's reading of the                      I

                       proposal and to the best of the Chairperson's knowledge, the proposal
                       does not contain any plagiarized material.

              (3)      NSF should require that, for two years from the date of the final
                       disposition of this case, when the subject is a principal investigator or co-
                       principal investigator on a proposal submitted to NSF for fhding, the
                       subject will certify in writing that he has recently reviewed NSF's
                       Misconduct in Science Regulation (45 C.F.R $689)' that the grant
                       application is h e of any misconduct, and that the grant application has
                       been reviewed as described above.'         '
             (4)      NSF should require that the PI send the Chairperson's assurance and the
                      PI'S certification to the Assistant Inspector General for Oversight in
                      NSF's Office of Inspector General, for retention in that Office's
                      confidential file on this matter.

                THE SUBJECT'S RESPONSE TO THE INVESTIGATION REPORT

       We forwarded the draft investigation report to the subject for comment and received a
response on October 8, 1996 (see Tab #lo). We reviewed the response and concluded that it
did not contain any additional information that altered our conclusions about the subject's
acti~ns.'~




'O   This is a Group I1 action, see §689.2(a)(2).
" This is a Group I1 action, see §689.2(a)(2).
l2   The subject said he did not considerthe processing of his case to be timely. The subject's30 ~ " n e1994 explanation
     about the allegations included a list of 2 1 scholarly references (see Tab 4), not readily accessible to NSFs library,
     that he claimed were exculpatory. After OIG obtained, reviewed, and evaluated each reference, we found major
     discrepanciesbetween the text in question and the references (see Tab 9). After assessingthis evidence, we decided
     to refer this matter to the universityfor investigationand did so in August 1995. The institutionprovided its analysis
     in January 1996. OIG then evaluated the institution's investigation and fmally initiated its own investigation.
     Although we do not believe that issues of "timeliness" should affect a decision about whether an individual engaged
     in misconduct, we have reviewed the circumstances and (noting a furlough occurred during this time) believe this
     case was processed in a reasonableand timely fashion.
